      INFORMATION SECURITY AND
        PRIVACY CONTROLS OVER
THE AIRMEN MEDICAL SUPPORT SYSTEMS

        Federal Aviation Administration


         Report Number: FI-2010-069
         Date Issued: June 18, 2010
           U.S. Department of
                                                                       Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Information Security and                                               Date:    June 18, 2010
           Privacy Controls over the Airmen Medical Support
           Systems
           Federal Aviation Administration
           Report Number FI-2010-069

  From:    Rebecca C. Leng                                                                      Reply to
                                                                                                Attn. of:    JA–20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Associate Administrator for Aviation Safety, FAA


           This report presents the results of our review of the information security and
           privacy controls over the Federal Aviation Administration’s (FAA) Airmen
           Medical Support Systems (MSS). FAA requires airmen to hold a medical
           certification of their medical and mental fitness to operate aircraft. 1 MSS
           currently stores more than 18 million medical records supporting the medical
           assessment of over three (3) million airmen. To ensure aviation safety and protect
           the privacy of airmen, it is critical that this medical information be secure. Also,
           coordination with other Federal agencies may improve aviation safety by
           identifying airmen who are receiving disability benefits and may not have
           disclosed potentially disqualifying medical conditions.

           This review was requested by the Chairmen of the House Committee on
           Transportation and Infrastructure and its Subcommittee on Aviation. The
           objectives of our audit were to (1) determine if airmen’s personally identifiable
           information (PII) is properly secured from unauthorized use or access, and
           (2) assess FAA’s progress in establishing mechanisms to identify airmen holding
           current medical certificates while receiving disability pay.

           To conduct our work, we interviewed officials from FAA’s Civil Aerospace
           Medical Institute located in Oklahoma City, Oklahoma; FAA’s Headquarters in
           1
               A medical certificate must be held when exercising any of the following privileges: airline transport pilot,
               commercial pilot, private pilot, recreational pilot, flight instructor, flight engineer, flight navigator, or student pilot.
               Except for a person employed by FAA, a branch of the military services or the Coast Guard, a person acting as an air
               traffic control tower operator must also hold a medical certificate.
                                                                                   2


Washington, D.C.; as well as representatives from FAA’s contractor and Aviation
Medical Examiners' (AME) private medical support staff at various locations. We
also spoke with officials from FAA's Office of Budget Policy Division. In
addition, we performed a vulnerability assessment of the MSS network
infrastructure, servers, Web applications, databases, and data interfaces. We
conducted this audit between March 2008 and January 2010 in accordance with
generally accepted government auditing standards. A detailed description of the
scope and methodology used on this audit can be found in exhibit A.

RESULTS IN BRIEF
The names, addresses, Social Security numbers, medical data, and other PII of
airmen are not properly secured to prevent unauthorized access and use. We
found serious security lapses in FAA’s management of AMEs private medical
support staff access to the system. For example, medical examiners’ former staff
continued to have access to MSS. At the same time, FAA has not fully
implemented security controls required by the Office of Management and Budget
(OMB) and the Department to protect PII, such as multi-factor user authentication,
audit trail reports to detect inappropriate access, and data encryption. In addition,
FAA has not ensured secure configuration of MSS computers in accordance with
the Department’s baseline standards to reduce the risk of unauthorized access and
corruption. Specifically, we found vulnerabilities on MSS computers, such as
configuration allowing intruders to install malicious codes on FAA user
computers. Inadequate contingency planning also threatens the service continuity
of MSS. Combined, these weaknesses make airmen’s PII vulnerable to
unauthorized access and use and potential falsification of medical certificates that
could lead to unfit airmen being medically certified to fly. During the course of
our review, FAA took immediate action to enhance security protection by working
with doctors to remove thousands of separated medical staff's access to MSS and
retracting millions of PII records from the contractor’s site. However, additional
improvements are needed to adequately secure PII data from unauthorized use.

FAA has made limited progress in identifying airmen who receive disability
benefits while holding medical certificates. While FAA has a draft matching
agreement with the Social Security Administration (SSA) to reconcile data in MSS
and SSA’s disability benefits system, it has yet to establish a target date for
completing the interface. Further, FAA has yet to coordinate with other benefits
providers, such as the Department of Veterans Affairs and the Department of
Labor. FAA continues to rely on airmen to disclose potentially disqualifying
conditions when applying for medical certificates. FAA recently announced a
onetime, limited opportunity for airmen to reveal previously undisclosed
depression and use of antidepressant medications without being subject to FAA
                                                                                                              3


enforcement action. 2 This step, however, does not take the place of a
comprehensive approach to undisclosed medical conditions. Accordingly, FAA
needs to expedite computer matching agreements with disability benefits
providers, implement the checks under those agreements, and take appropriate
enforcement action where falsifications are found.

To assist FAA, we are making a series of recommendations to strengthen the
confidentiality, integrity, and availability of airmen PII and to ensure unqualified
airmen do not receive a medical certification enabling them to fly.

BACKGROUND
MSS contains over 18 million medical records on more than 3 million airmen, of
which over 465,000 have current medical certifications. 3 In addition to medical
information, the system contains other sensitive personal information, such as
name, address, date of birth, and Social Security number of airmen. MSS is
accessible to about 9,000 users, 8,500 of whom are AME––private physicians who
function as FAA designees—or their staff, who enter the medical data into the
MSS Web site on the Internet. AMEs and their staff have access to all information
(including medical data) stored in MSS on airmen examined in their offices. In
addition, they can access the name, address, date of birth, and partial Social
Security number on all airmen examined by other AMEs and stored in MSS.
Almost 300 AMEs reside in 89 foreign countries and conduct exams on airmen
seeking to fly in the United States.

In 2007, the Inspector General testified before the House Committee on
Transportation and Infrastructure that some airmen failed to disclose to FAA any
medically disqualifying information on their applications for medical certificates.
Further, some airmen held current medical certificates while simultaneously
receiving disability benefits for medically disabling conditions. 4 Our testimony
suggested that FAA work with the SSA and other disability benefits providers to
expeditiously develop and implement a strategy to check for and take appropriate
certificate regulatory enforcement action where falsifications are found, and to
consider revising its application for the medical certificate to require applicants to
explicitly identify whether they are receiving medical disability benefits.

2
    75 Fed. Reg. 17049 (April 5, 2010).
3
    FAA’s Civil Aerospace Medical Institute in Oklahoma City processes medical certificate applications in MSS.
4
    Falsification of FAA Airman Medical Certificate Applications by Disability Recipients (CC-2007-063, July 17,
    2007). OIG reports and testimony can be found on our Web page: www.oig.dot.gov.
                                                                                                             4



SENSITIVE AIRMAN MEDICAL RECORDS ARE NOT PROPERLY
SECURED FROM UNAUTHORIZED USE
DOT policy requires FAA to implement controls for removing medical record
access rights when they are no longer required, to ensure user access is derived
from a role-based validation process and each user’s level of access is
commensurate with a need to know, and to document all users who have access to
sensitive data. 5 However, such controls have not been implemented in MSS. At
the same time, FAA has not implemented OMB guidance to secure PII in an
automated information system or to properly configure MSS production and
development computers to reduce the risk of tampering.

Medical Staff and Contractor Access Continued Despite A Need To
Know
We contacted six AME physicians and medical staff with user access to MSS and
found that, while all six were no longer employed with the AME, their MSS
access status remained active, giving them easy access into the system to obtain
sensitive PII or tamper with MSS data—including the potential to falsify medical
certifications. In addition, AMEs and their staff—current and former—can access
information on airmen who are deceased or inactive that comprise as much as 86
percent of airmen in the database (see table 1). While FAA uses such historical
medical data on airmen as a valuable research tool, it provided no justification for
keeping these records in the online database accessible by non-FAA personnel
over the Internet.

Table 1. Schedule of Airman Records

                                             Medical Certifications                      Medical Records
                                          Number             Percent               Number           Percent

Active airmen                             465,493                 14%            5,145,075              28%

Inactive airmen                         2,813,373                 86%           13,336,748              72%

Total                                   3,278,866               100%            18,481,823             100%


In addition, FAA had been sending millions of airman medical records from the
MSS database to its contractor’s facilities, a practice that has been in place over
the past decade. FAA’s contractor has been using this live data in its system
testing procedures, but FAA had not justified the contractor’s need for using
millions of live records—or considered the security implications of storing airman
5
    DOT Information Technology and Information Assurance Policy Number 2006-22 – October 11, 2006 (revision 1):
    Implementation of DOT’s Protection of Sensitive Personally Identifiable Information (SPII).
                                                                                                                5


PII at the contractor facility. After we requested documentation of support and
approval of the data transference, FAA concluded there was no business need to
maintain the data at the contractor’s site. Millions of PII records were purged
from the contractor’s site.

The control weaknesses we identified are largely the result of FAA’s failure to
provide adequate oversight of the contract by communicating the DOT
requirements regarding access controls.        Upon learning of these control
weaknesses, we notified FAA, which responded in June 2009 (see Appendix A),
stating that it had begun implementing corrective actions, such as working with
doctors to remove access for separated medical staff. In addition, FAA purged
millions of PII records from the contractor’s site. However, the lack of
documentation about the application security features such as definitions of users’
ability to access data and perform critical functions continues to weaken FAA’s
ability to administer effective security.

MSS Does Not Comply with Department Guidance/Policy on
Measures to Deter and Detect Unauthorized Access
In 2006, OMB reemphasized to agencies their responsibilities and corresponding
policy to appropriately safeguard PII, such as implementing secure authentication
methods for remote access to compensate for a lack of physical security controls. 6
Following OMB’s guidance, the Department required its operating components to
encrypt PII data, use multifactor user authentication and DOT’s Secure Remote
Access (SRA) portal for remote PII access 7, provide security and privacy
awareness training for the AME users, and report abuses of access privileges. The
Department issued their requirements in 2006; however, FAA has not fully
complied with OMB and DOT requirements.

Data Encryption, Multifactor Authentication and Secure Remote Access
DOT requires operating components to encrypt all sensitive PII. At the time the
policy was issued, DOT required all existing sensitive PII to be encrypted within 6
months. However, sensitive airmen information continues to lack encryption.
MSS passwords were also stored in clear text on the system, thus lacking technical
safeguards in accordance with existing DOT policy and the Privacy Act to ensure
the security and confidentiality of privacy records and to protect against security
threats. In addition, airmen's PII shared with another FAA system is not encrypted
during transmission or when stored in the receiving system. FAA also lacks a
written plan describing the required security and processing procedures for the
interface.
6
    OMB Bulletin M-06-16, “Protection of Sensitive Agency Information,” June 23, 2006. OMB recommended controls
    to compensate for the lack of physical security when information is removed from, or accessed from outside the
    agency location.
7
    DOT policy requires that all DOT personnel and contractors that access DOT internal networks and systems
    remotely shall use only an authorized and approved SRA.
                                                                                 6


FAA has also failed to implement strong mechanisms to authenticate users for
remote access to MSS, as required by DOT policy and identified in FAA’s MSS
Information System Security Plan (ISSP). Specifically, the ISSP calls for MSS to
comply with the National Institute of Standards and Technology’s (NIST) level 4
technical requirements for multifactor authentication. 8 Level 4—NIST’s highest
remote network authentication level—requires employment of at least two of the
following three authentication methods: (1) a password or personal identification
number; (2) a smartcard, badge, or other authentication token; and (3) a physical
characteristic such as biometric information. While FAA has implemented
password controls for MSS user authentication, we found no evidence that the
required second authentication has been designed, tested, or implemented.

Further, FAA does not require remote users to go through the Department's SRA
portal to access sensitive MSS information. The portal ensures user computers are
appropriately configured with security updates and virus protection before access
is granted to reduce the risk of attacks on departmental networks. Approximately
8,500 of MSS active users can access sensitive PII remotely without using the
SRA portal.

Failure to encrypt sensitive PII and control remote access to MSS places airmen at
unnecessary risk of identity theft, jeopardizes the integrity of the medical
certification process, and increases risks of attacks on departmental networks.

Security and Privacy Awareness Training for AMEs and Their Staff
OMB Circular A-130, the Federal Information Security Management Act
(FISMA), and the Computer Security Act of 1987 require agencies to ensure that
all users of Federal computer systems are appropriately trained in policies and
procedures regarding computer security, protection of privacy, as well as how to
fulfill their security responsibilities before allowing access to the systems.
Further, individuals are required to exhibit behavior consistent with the rules of
the system and periodic refresher training for continued access.

Despite these requirements, which are part of DOT policy, FAA exempted AME
staff from taking DOT’s mandatory security awareness and privacy awareness
training. FAA concluded that because the 8,500 AME users with access to MSS
are identified as “designees,” they are not required to take the mandatory training
for employees and contractors. FAA also exempted AME staff from signing a
“rules of behavior” agreement—an agreement that acknowledges responsibility to
take all appropriate precautions to safeguard PII. FAA planned to include rules of
behavior agreements in the Aviation Medical Examiner certification process once
the agreement form is incorporated in the online MSS certification system.
8
    NIST Special Publication 800-63 “Electronic Authentication Guideline”.
                                                                                 7


However, 2 years have elapsed since FAA made this decision, and the full online
system component has not yet been developed.

Without providing the required security and privacy training and receiving signed
rules of behavior agreements, users of FAA’s systems may fail to understand their
responsibilities and adhere to practices for properly safeguarding sensitive data
and all other Government owned information technology resources.

Management Reports and Other Controls to Identify Potential
Inappropriate Access and Data Integrity Issues
MSS lacks audit trail reporting and accountability controls to detect incidents of
staff abusing access privileges. Security testing conducted by FAA in September
2008 concluded that there are no audit trail reports to monitor and detect
inappropriate user access. For example, while AME staff is authorized to access
airmen PII to conduct medical examination, excessive access for personal reasons
is not appropriate and needs to be deterred. This security testing resulted in
recommendations that FAA implement a process to monitor user activities. Such
controls have proven to be effective in detecting inappropriate access. For
example, a State Department audit trail review found that personnel had
inappropriately accessed Presidential candidates' passport information during the
2008 election. Like the State Department's passport system, MSS also contains
sensitive information concerning well-known political leaders and other public
figures.

Further, data extracts of sensitive airmen PII sent to other FAA systems are not
logged or confirmed to have been deleted after 90 days, as required by
departmental policy. FAA plans to implement the recommended audit and
accountability controls by April 2010. However, while FAA has held internal
discussions to address these weaknesses, it has not made progress on a solution
due to consideration of a commercial “off-the-shelf” program to address audit,
accountability, and logging at an enterprise level.

In addition, FAA has not implemented controls to validate critical data as it is
entered into MSS. As a result, inaccuracies, such as invalid Social Security
numbers, can be created when identifying airmen and interfacing data between
various information systems. Inaccuracies in the MSS data could complicate the
procedures to be used in a matching program with benefits provider data. As FAA
moves closer toward performing a matching of airman data with disability
benefits, it will be important to ensure it has the most complete, accurate, and
valid information available in which to perform the computer matching.

NIST provides mandatory controls for Federal information systems, which require
checks for completeness, accuracy, validity, and authenticity of information as
close to the point of origin as possible. Without MSS data validations in place and
                                                                                                          8


functioning, there is a risk that incomplete and/or inaccurate medical information
could enter the MSS system impeding the efforts of investigators, aviation medical
examiners, and other decision makers.

MSS Production and Development Computers Are Not Properly
Configured to Reduce Risk of Unauthorized Access and Attacks
Web applications, databases, and other MSS system components were not
properly configured, or patched with vendor upgrades, to reduce the risk of
unauthorized access or sabotage. We found critical vulnerabilities in these
components. For example, Web applications can be exploited to gain access to
MSS, making FAA-user computers vulnerable to hacking and malicious codes.
Vulnerabilities in the database allowed us to gain unauthorized access to MSS.
Specifically, we were able to gain valuable configuration information—such as the
database schema—by exploiting database passwords, which were both short and
easy to guess because they were the same as user IDs. 9

Our prior audit work as well as FAA testing identified additional security
configuration issues. First, we noted that users are allowed six unsuccessful login
attempts to the Web before the account is locked. The MSS ISSP requires
unsuccessful login attempts to be limited to three. Second, the application does
not have a session timeout after 15 minutes of inactivity.

These vulnerabilities are largely the result of weaknesses in the MSS change
management process. Specifically, the process does not provide for assessments
of the impact that planned system changes may have on security prior to
implementation. For example, while FAA’s processing checklist for system
changes requires a review of previous Certification and Accreditation
documentation, it does not require additional security testing that would identify
new vulnerabilities introduced as a result of these changes. FAA is required by
DOT policy to implement controls that provide for ongoing assessments of system
security, which include monitoring changes to ensure security features remain in
effect and are still functioning properly after system changes. FAA has only
recently begun devoting the resources necessary to implement these controls.

Contingency Planning Weaknesses Threaten Service Continuity
FISMA requires Federal agencies to follow NIST standards for ensuring system
continuity, which include contingency plan exercises and training, designating an
alternate processing site, and system recovery capability. FAA designated MSS as
a system which, if nonfunctional, has a high-risk impact on FAA missions.
However, continuity controls for MSS did not meet NIST continuity standards for
9
    The results of our tests were provided to FAA for remediation. FAA took action to correct weak front end
    application passwords during our review. However, our unauthorized access was possible because back end
    computers were not properly configured to meet security standards.
                                                                                                                     9


systems with a moderate-risk impact. For example, in lieu of a live recovery test,
a MSS contingency plan exercise consisted of a single test—calls to key personnel
to confirm contact phone numbers were correct. FAA could expand the scope and
objectives of the exercise to include validating the content of the plan and related
policies and procedures, as well as validating the participant’s roles and
interdependencies. In addition, FAA lacks a Memorandum of Understanding with
the identified alternate processing site.

Several conditions put MSS at high risk of interruption. First, MSS has been
operating on a back-up server since April 2008 when the primary server failed.
However, FAA never replaced the back-up server. In addition, the MSS database
version in production is no longer supported by the vendor, and only one Database
Administrator (DBA) is working on the MSS system. As a result, security updates
are not being issued to secure the current MSS database, and there is no backup
personnel should the DBA become unavailable.

While FAA is aware of these issues, it has focused on meeting other MSS business
requirements, such as implementing the MedXPress Web site—not on remediating
service continuity weaknesses. Absent effective controls to ensure MSS system
continuity, FAA may be unable to meet its statutory obligation to certify the health
of pilots, air traffic controllers, and other FAA covered positions if the current
system fails.

FAA HAS MADE LIMITED PROGRESS IN DETECTING AIRMEN
RECEIVING DISABILITY BENEFITS WHILE HOLDING MEDICAL
CERTIFICATES
To identify airmen who receive disability pay while holding medical certificates,
FAA has conducted educational outreach, primarily by revising its medical
certificate application forms and has worked with the SSA to discuss a computer
matching agreement. 10 However, the progress has been slow in developing and
implementing mechanisms to systematically detect airmen applying for or holding
medical certificates while receiving disability benefits.

FAA has taken productive steps toward educating airmen and AMEs of their
responsibilities in ensuring airmen, who have disqualifying medical conditions, do
not hold medical certificates. In September 2008, FAA revised the paper and Web
site version of its Application for Medical Certification, Form 8500-8. The
applications now include a question asking airmen to confirm whether or not they
currently receive, or have ever received, medical disability benefits. These
10
     Computer Matching Agreements are governed by 5 U.S.C. § 552a, Records maintained on individuals. No record
     that is contained in a system of records may be disclosed to a recipient agency or non-Federal agency for use in a
     computer matching program except pursuant to a written agreement between the source agency and the recipient
     agency.
                                                                                                                    10


changes serve to start a dialog between the AME and the airman about potentially
disqualifying medical conditions related to disabilities and provide the basis for
the AME to evaluate airman fitness while medical benefits are received. FAA also
used its Web site and the Federal Air Surgeon’s Medical Bulletin to educate
AMEs on their responsibility to perform good examinations, obtain accurate and
complete information from airmen, and the consequences of falsification. In
addition, FAA revised the privacy act statement on the 8500-8 application to
include a statement that the record may be used to disclose information to other
Federal agencies for verification of the accuracy or completeness of the
information.

FAA had discussions on a draft matching agreement with SSA in June 2009, but a
target date for completion has not been determined. FAA is holding ongoing
internal discussions within the Department of Transportation to complete its
review of the draft agreement. In addition, FAA has not made progress with other
disability benefits providers, and reaching computer matching agreements has
been a challenge—largely due to complications of sharing agency information.

When we began this audit, FAA’s Office of Aerospace Medicine did not plan to
implement an amnesty program to pilots who falsified their medical certificate
application. 11 In our view, an amnesty program would provide an opportunity to
quickly mitigate the safety risk posed by airmen’s undisclosed and potentially
disqualifying medical conditions. 12 FAA initially concluded there is no advantage
in offering an amnesty program to encourage voluntarily reporting of falsifications
because the proposed computer matching program between FAA and benefits
providers would discover all of the pilots who have reported conflicting medical
information to agencies. Further, FAA stated that an amnesty program could have
a negative impact on its regulatory and enforcement activities. However, FAA has
since reconsidered the utility of amnesty programs. On April 5, 2010, FAA
announced a one-time, limited opportunity for airmen to reveal previously
undisclosed depression and use of certain antidepressant medications without
being subject to FAA enforcement action for failure to disclose this information on
past medical certificate applications. 13 This is a positive step, but we recommend
that FAA move forward with finalizing and implementing computer matching
11
     Falsification of FAA Airman Medical Certificate Applications by Disability Recipients (CC-2007-063, July 17,
     2007). The DOT Inspector General previously discussed key points for mitigating the safety risks posed by
     airmen who falsify their Airman Medical Certificate applications to conceal disqualifying medical conditions.
     OIG reports and testimony can be found on our Web page: www.oig.dot.gov.
12
     FAA previously offered a similar program in the late 1980s to identify previously undisclosed drug- or alcohol-
     related convictions, resulting in more than 11,000 pilots making disclosures.
13
     To participate in this program, an airman must surrender for cancellation to the Federal Air Surgeon any current
     medical certificates. The airman must apply for a medical certificate between April 5, 2010 and midnight on
     September 30, 2010. On the application, the applicant must disclose his or her complete history of antidepressant
     use, the underlying condition for which the medication was prescribed, and visits to health professionals in
     connection with antidepressant use or the underlying condition. If an applicant falsifies any of this information on
     an application made on or after April 5, 2010, the FAA may take enforcement action based on that application and
     the previously falsified applications. 75 Fed. Reg. 17,201 (Apr. 5, 2010).
                                                                                 11


agreements to take a comprehensive approach to the undisclosed medical
conditions.

CONCLUSION
The Government is responsible for securing sensitive PII collected from the
public. However, FAA could not provide such assurance for the millions of
airmen PII records stored in MSS. While FAA has begun to take steps to better
safeguard airmen records, the current control environment is still insufficient to
prevent unauthorized or inappropriate access to airmen medical information. Gaps
in continuity planning and coordination with agencies providing disability benefits
further compromise MSS program integrity. FAA needs to assign a high priority
to fix the weaknesses identified in this report. Until then, FAA provides little
assurance that sensitive information is protected from misuse, airmen holding
medical certificates are fit to fly, and the medical certification program would not
be disrupted in case of system failures.

RECOMMENDATIONS
We recommend that FAA's Associate Administrator for Aviation Safety, in
consultation with the FAA Chief Information Officer, implement the following
actions to improve the security, reliability, and accuracy of sensitive airmen
medical information and tighten controls to ensure that unqualified airmen do not
receive a medical certification enabling them to fly.

Secure Sensitive Airman Records:

1. Finalize implementation of MSS application security administration
   improvements to ensure only authorized medical staff has access to MSS, as
   identified by the FAA’s Federal Air Surgeon in June 26, 2009, internal
   memorandum and report progress to the FAA Administrator.

2. Implement restrictions on AME access to inactive airman records based on a
   need to know.

3. Develop documentation detailing the intended controls regarding how users
   function within their assigned security roles, how the MSS application enforces
   both access control and segregation of duties, and the features of the
   application to assist security administration.

Deter and Detect Unauthorized Access and Invalid Airman Data:

4. Encrypt sensitive airmen PII stored in MSS as well as MSS user passwords,
   and develop agreements as appropriate to ensure airmen PII provided to other
   systems is also encrypted.
                                                                                 12


5. Implement multifactor user authentication, as required by OMB, and the
   Department’s Secure Remote Access capability for all MSS users with remote
   access to sensitive PII.

6. Require and validate that all AMEs and their staff participate in the DOT
   security and privacy awareness training, as well as sign the DOT Rules of
   Behavior.

7. Implement the audit and accountability recommendations received during the
   previous certification and accreditation process to help identify inappropriate
   access to sensitive PII (abuse of access privileges) and ensure data
   extract/query has been erased within 90 days from its creation date.

8. Develop edit checks on the integrity of airman application data when entered
   into MSS.

Configure MSS Systems to Reduce the Risk of Attack:

9. Mitigate the vulnerabilities identified by OIG on MSS computers that could
   allow unauthorized access and potentially jeopardize confidentiality, integrity,
   and availability of sensitive PII.

10. Configure MSS computer systems in compliance with applicable Government
    standards including ensuring vendor security updates are applied, the Web site
    locks the user account after three unsuccessful attempts, all passwords on the
    MSS database are in compliance with standards, and that the application will
    enforce a session lock after 15-minute inactivity for all users in accordance
    with OMB and DOT guidance.

11. Perform and document security testing as a continual part of the MSS
    development process to confirm that security features remain in effect and are
    still functioning properly when system changes are made.

Mitigate Contingency Planning Weaknesses that Threaten Service Continuity:

12. Acquire a back-up server, finalize the Memorandum of Understanding with the
    selected alternate processing site, and conduct a comprehensive contingency
    test at the alternate site in accordance with Government standards.

13. Upgrade the database system to a version supported by the software vendor.

14. Develop back-up database administration capability in the event the primary
    Database Administrator is unavailable.
                                                                                13


Detect airmen receiving disability benefits:

15. Work with SSA and other disability benefits providers to establish a target
    completion date for performing computer matching to identify airmen applying
    for, or holding, medical certificates and receiving disability benefits.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA a draft of this report on March 12, 2010, and received its
written comments on May 19, 2010. FAA concurred with all recommendations
but recommendation 5—implementing multifactor user authentication, as required
by OMB, and the Department's Secure Remote Access capability for all users with
remote access to sensitive PII stored in MSS.

FAA disagrees that multifactor authentication is required to control the remote
access of AMEs and their staff to MSS, even though it is required for FAA
employees/contractors' access. FAA stated it performed an assessment and
determined that multifactor authentication is not required for AMEs and their staff
because they can only access airmen medical data that they have entered into the
system. FAA further stated OMB guidance issued in 2004 requires performance
of such an assessment and does not expressly require multifactor authentication
for all Web based applications. FAA's position disregards OMB guidance issued
later in 2006 specifically to secure remote access to sensitive information. The
purpose of multifactor authentication is to ensure user authenticity (they are who
they say they are), not to authorize access to the data. Furthermore, FAA did not
respond to the recommendation of restricting remote access to MSS through the
Department's Secure Remote Access portal. This portal checks user computers for
recent security upgrades and virus protection before allowing connections to
DOT's internal networks. Without going thru this security check, computers used
by AMEs, if infected, could spread viruses and compromise DOT's networks.
Given this significant threat, we stand by our recommendation that FAA
implement multifactor user authentication and the Secure Remote Access
capability for AMEs and their staff's remote access to sensitive PII.

Although FAA concurred with the remaining 14 recommendations, we have some
concerns regarding its planned implementation for two of these recommendations.
Specifically:

Recommendation 2. We recommended that FAA restrict access to the records of
inactive airmen based on a need to know. FAA concurred and agreed to make the
changes necessary to restrict access to inactive records by September 30, 2013.
However, FAA’s implementation schedule is protracted and will continue to put at
                                                                                 14


risk sensitive airman information beyond the time necessary for this control to be
implemented. Therefore, FAA should strongly consider revising its September 30,
2013 target completion date.

Recommendation 15. We recommended that FAA work with SSA and other
disability benefits providers to establish a target completion date for a computer
matching program to detect airmen applying for, or holding, medical certificates
while receiving disability benefits for disqualifying conditions. FAA concurred
but took the position that implementation of such a program relies on other
agencies’ cooperation, including participation from DOT and SSA OIGs. Both
OIGs participated in comparing MSS and SSA disability data during the Operation
Safe Pilot investigation. This investigation targeted the most egregious cases of
falsification for criminal prosecution. Criminal investigation would not be the
most effective way for FAA to address the safety concerns raised by medically
unfit airmen having medical certificates. Moreover, DOT OIG does not believe it
would be a necessary party to a computer matching agreement. FAA is waiting to
determine if SSA OIG will participate without DOT OIG. Since implementation
of computer matching agreements is not entirely within its control, FAA did not
provide a target completion date. FAA also indicated that should SSA OIG
decline direct participation, FAA will determine, by November 2010, possible
alternatives for implementing a computer matching program. While OIG believes
this is a reasonable response due to the complexity of computer matching
programs, FAA will need to proactively engage SSA and others to ensure progress
on this recommendation and should provide information to OIG on its progress.

FAA's formal response is included in its entirety in Appendix B.

ACTIONS REQUIRED
We consider FAA’s actions already taken, as well as those planned, to be
responsive except for recommendations 2, 5 and 15, subject to follow-up
provisions in Department of Transportation Order 8000.1C. We request that FAA
give us a written response to the recommendations noted above. Specifically,
within 30 days, FAA should provide its response regarding the acceleration of the
target completion date for recommendation 2, and its revised position on
multifactor authentication and secure remote access requirements in
recommendation 5. For recommendation 15, we request that, by December 31,
2010, FAA provide its plan for completion of the computer matching program,
including a target completion date, or its alternative and a target completion date.

We appreciate the courtesies and cooperation of Department of Transportation,
Federal Aviation Administration’s Office of Aviation Safety; CAMI Office of
Aerospace Medicine; Office of Quality, Integration, and Executive Services; and
Office of Information Systems Security representatives during this audit. If you
                                                                           15


have any questions concerning this report, please call me at (202) 366-1407 or
Nathan Custer, Program Director, at (202) 366-5540.



cc:   Chief Information Officer, DOT
      Assistant Administrator for Financial Services/CFO, FAA
      Assistant Administrator for Information Services/CIO, FAA
      Federal Air Surgeon, Office of Aviation Medicine, FAA
      Director, Civil Aerospace Medical Institute, FAA
      Martin Gertel, M-1
      Anthony Williams, ABU-100
                                                                                 16



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. As required by those standards, we obtained evidence that we
believe provides a reasonable basis for our findings and conclusions based on
our audit objectives. We used the following scope and methodology in
conducting this review.

We conducted this audit between March 2008 and January 2010. The review
included site visits to the FAA’s Civil Aerospace Medical Institute (CAMI)
located in Oklahoma City, Oklahoma.

To determine if airmen’s personally identifiable information (PII) is properly
secured from unauthorized use or access, we interviewed officials from FAA
Headquarters Office of Aviation Safety; Office of Aerospace Medicine; CAMI;
Office of Quality, Integration, and Executive Services; Deputy Director of
Information Systems Security; and representatives from FAA's contractor. In
addition, we interviewed Aviation Medical Examiners' private medical support
staff at various locations, based upon users we suspect were no longer employed
based on information found in a MSS user table. We obtained, reviewed and
analyzed documentation related to the confidentiality, integrity, and availability
of the MSS system.

In addition, we performed a vulnerability assessment of the MSS network
infrastructure, servers, Web applications, databases, and data interfaces in
accordance with DOT departmental Guide to Network Security as well as
applicable baseline controls. We performed the assessment using automated
software tools as well as manual testing techniques. The results of the scans
were reviewed to determine if security settings meet policy and baseline
requirements for security testing, vendor updates (patches) and FAA’s
configuration of these systems.

To assess FAA’s progress in establishing a program to identify airmen holding
current medical certificates while receiving disability pay, we performed
inquiries with the FAA Office of Budget—Budget Policy Division.




Exhibit A. Scope and Methodology
                                                                     17



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Nathan Custer                         Program Director

  Ping Sun                              Program Director, IT Audit
                                        Computer Laboratory

  Karen Sloan                           Communication Officer

  Joann Adam                            Project Manager

  Maria Dowds                           Senior Auditor

  Tim Roberts                           Senior Auditor

  Vasily Gerasimov                      Information Technology
                                        Specialist

  Seth Kaufman                          Associate Counsel




Exhibit B. Major Contributors to This Report
APPENDIX A. MEMORANDUM FROM THE FEDERAL AIR
SURGEON: JUNE 26, 2009
                                                                                        18




                     Federal Aviation
                     Administration

Memorandum
Date:           June 26, 2009
To:             Rebecca C. Leng, DOT/AIGA, JA-20
From:           Frederick E. Tilton, MD, Federal Air Surgeon, AAM-1
Subject:        Aerospace Medical Certification Subsystem (AMCS) Security Issues


This memo is in response to an E-Mail dated June 18, 2009 that you sent to Margaret
Gilligan, AVS-1, and David M. Bowen, AIO-1, and a subsequent telecon between
individuals from the FAA and members of your staff that occurred on June 19, 2009. In
the memo you expressed concern that certain individuals could continue to access the
AMCS system when they no longer had a legal authorization to do so. We share your
concerns for the security of our systems, and we are taking these actions to correct the
deficiency:

NEAR TERM – Not later than September 30, 2009

As of June 24, 2009, the following action memo pops into view every
time an individual logs on to the AMCS website or the FAA.GOV
AMCS support webpage.

      "To ensure continued security and integrity of your aviator's medical certification
      information on the FAA AMCS web based system, it is critical that only current
      authorized users from your office have valid AMCS accounts. It is your
      responsibility to notify the AMCS Online Support help desk at (405) 954-3238 if staff
      changes have occurred for individuals with AMCS privileges and their employment
      status no longer requires AMCS access."

Not later than July 31, 2009, an electronic query will be transmitted across
AMCS that will be used to identify any aviation medical examiner (AME) or
staff member who has not accessed the AMCS system within the previous 90
days. The information will be reviewed and analyzed by aerospace medicine
(AAM) management to ascertain those AMCS accounts that should be

Appendix A. Memorandum from the Federal Air Surgeon: June 26, 2009
APPENDIX A. MEMORANDUM FROM THE FEDERAL AIR
SURGEON: JUNE 26, 2009
                                                                                  19
disabled. AAM management will then notify the IT help desk representative to
disable the identified accounts. This process will be repeated quarterly.

Not later than August 31, 2009, a letter will be sent to each AME that requires
him or her to promptly report any change in staff member status to the regional
flight surgeon, the AMCS online support help desk, the manager of the
aerospace medical certification division AAM-300, and the manager of the
aerospace medical education division AAM-400. This letter will include the
currently approved users for the office and emphasize that FAA security
requires that AMCS usernames and passwords must not be shared with
anyone. The letter will include a warning that the FAA will take an adverse
action against an AME’s designation if he or she should fail to comply with
this requirement.

MID TERM – Not later than December 31, 2009

Train the AAM regional program analysts who perform surveillance visits to
AME’s offices to include an assessment of AMCS use by the AME and his or
her staff.

Develop a process that automatically sends an email message to each AME on
a regular basis requiring him or her to verify that each staff member who is
using AMCS is authorized to do so. Non-response from the AME within 30
days will result in account disablement for that AME and associated staff
members.

Provide the results of the electronic query noted above to the AAM regional
flight surgeons for enhanced oversight of AME activity. In addition, the
regional flight surgeons will conduct random checks to help assure
compliance.

LONG TERM – Not later than September 30, 2010

Revise the AME Order to add "AME failure to immediately notify the FAA
about changes in the status of AME staff who are AMCS users" to the list of
reasons that could result in termination of an AME's designation.

As part of the tri-annual AME re-designation process, AMEs will be required
to validate the current status of their staff members who have access to AMCS.

When we issue AMCS usernames and passwords to AMEs and their staffs we
will require them to sign a statement indicating that they agree to stop
accessing AMCS whenever they no longer have the legal justification to use
this system.


Appendix A. Memorandum from the Federal Air Surgeon: June 26, 2009
APPENDIX A. MEMORANDUM FROM THE FEDERAL AIR
SURGEON: JUNE 26, 2009
                                                                                       20
Develop a software modification to the AMCS logon procedure that will automatically
require each AME to validate the authorized users in his or her office each quarter.

In closing, as you know, we are legally required to monitor and assess the security
controls of our systems and to take appropriate actions to enhance and improve them as
necessary.




Appendix A. Memorandum from the Federal Air Surgeon: June 26, 2009
APPENDIX B. AGENCY COMMENTS
                                                                                         21




                    Federal Aviation
                    Administration

Memorandum
Date:            MAY 19 2010
To:              Rebecca C. Leng, Assistant Inspector General for Financial and
                 Information Technology Audits
From:            Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by:     Anthony Williams, x79000
Subject:         OIG Draft Report: Information Security and Privacy Controls over the
                 Airmen Medical Support Systems Federal Aviation Administration



The Federal Aviation Administration (FAA) is committed to ensuring the security of our
information systems and the privacy of personal information in our systems. Over the past
year, the FAA has taken steps to tighten access requirements and controls for the Airmen
Medical Support System (MSS), increase the use of encryption, and correct security
vulnerabilities identified in the report. As part of a complete database upgrade in October
2009, the FAA also deployed backup servers, and added processing capability at an
alternate location. The FAA will complete additional work through next year that will
further strengthen system security and protection of personally identifiable information
(PII).

The FAA plans to establish a Federal database matching program to identify pilots who
have falsified their FAA Application for Airman Medical Certificate (FAA Form 8500-8).
To improve the safety of the National Airspace System, the FAA plans to identify pilots
who receive disability benefits from the Social Security Administration (SSA), Veterans
Administration (VA) or Department of Labor (DOL). The FAA recognizes that pilots may
meet disability standards at SSA, VA or DOL yet still satisfy FAA medical standards, or be
eligible for a special issuance medical certificate. As a result, the FAA will need to
carefully review any match between data bases and review the medical information in those
data bases to ensure that pilots have fully and accurately reported their medical histories to
the FAA. The FAA will initiate appropriate enforcement actions in cases where pilots have
falsified their Application for an Airman Medical Certificate.


Attachment

Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                          22

OIG Recommendations and FAA Responses

OIG Recommendation 1. Finalize implementation of MSS application security
administration improvements to ensure only authorized medical staff has access to MSS,
as identified by the FAA’s Federal Air Surgeon in June 26, 2009, internal memorandum
and report progress to the FAA Administrator.

FAA Response: Concur. The FAA implemented security measures that have already
improved MSS application security administration. Work on additional measures is
underway with completion planned for the end of Fiscal Year (FY) 2010. The following
is a listing of actions completed and underway.

COMPLETED ACTIONS:

User Warning Message – The following warning message, which is displayed when
any user logs in to the Airmen Medical Certification System (AMCS), was implemented
in June 2009:

     “To ensure continued security and integrity of your aviator’s medical
     certification information on the FAA AMCS web based system, it is critical
     that only current authorized users from your office have valid AMCS
     accounts. It is your responsibility to notify the AMCS Online Support help
     desk at (405)954-3238 if staff changes have occurred for individuals with
     AMCS privileges and their employment status no longer requires AMCS
     access.”

User Account Inactivity Report – The FAA developed an automated query to help
identify users that may no longer require access to the system. The query generates
quarterly reports of MSS accounts which have not accessed the system within the last 90
days. This report can be run at any time and for any duration (i.e. 30, 60, 90 days, etc.) of
inactivity.

User Requirement Notification – A letter notifying each AME of their responsibility
to report staff changes was mailed to each AME on September 21, 2009.

Train FAA Designee Surveillance Staff – The FAA developed and conducted training
for FAA employees who are assigned designee oversight and quality assurance
responsibilities. This AME surveillance training was held in October 2009.

AME Verification – In December 2009 the FAA implemented an automated process
for sending E-Mail messages to AMEs on a regular basis requiring verification for each
of their staff members authorized to access AMCS.




Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                       23
Electronic Query Results Reporting – FAA Regional Flight Surgeons received their
first reports from the verification queries in December 2009. This reporting will improve
designee oversight and will continue until the final MSS software modification is
functional.

Tri-Annual AME Staff Access Revalidation – Beginning in October 2009, AMEs are
required to review all members of their staff who have MSS access and confirm that they
are still employed by the AME and still require access to MSS.

Signed Verification of Need for Access to MSS – FAA requires AMEs and their staffs
to complete and sign an account request form to obtain their user names and passwords.
The form they sign includes a statement that they agree to notify the FAA and stop
accessing MSS when they no longer have a legal justification to do so. Specifically the
statement reads:

     "I agree to promptly notify the Aeromedical Certification Division/AAM-300
     of any changes in the status of the requestor's employment or in the event
     that the requestor (AME, Staff, or FAA Employee/Contractor) no longer has
     the need-to-know requirements concerning the above computer system."

ACTIONS UNDERWAY – The following actions are underway and are intended for
completion by the end of FY 2010:

Revise FAA AME Order – A revision to FAA Order 8520.2, incorporates a new
provision as a cause to terminate an AME designation. Under the new provision, an
AME may be terminated for failure to notify the FAA of staff changes for those with
access to AMCS. The revisions incorporated in this change to the order focus on FAA
designee management standards. The order is ready for internal FAA coordination and
the projected publication date is August 2010.

Improved User Authentication – The FAA is developing MSS software modifications
to require AMEs to validate authorized users quarterly. Portions of the software
modifications have been completed and deployed, including the web page, which AMEs
will use to validate staff members. This web page was available in December 2009 for
AMEs to begin validating staff with continuing need to access the MSS. This same web
page will be used by AMEs when they are required, as part of the AMCS logon process,
to validate their staff personnel each quarter. Full implementation of the AMCS logon
validation procedure is slated to be completed and deployed by August 31, 2010.

OIG Recommendation 2. Implement restrictions on AME access to inactive airman
medical records based on a need to know.

FAA Response: Concur.

In addition to all the restrictions currently in the MSS system, the FAA will develop the
necessary MSS software changes for designating airmen medical records as inactive and

Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                               24
restricting access to inactive records for aerospace medicine research purposes only.
While the FAA concurs with the recommendation, a number of interim measures must be
addressed to achieve implementation. First, the FAA needs to begin with a business
process to define an "inactive airman" from the perspective of medical certification.
While deceased airmen are discussed in the report, the FAA is not typically informed
when an airmen dies through non-aviation related events. AVS could base the definition
on the valid period for a third class medical certificate with a grace period added to
minimize inefficient shuffling of airmen records between an active and inactive status.
Determining the length of the grace period could be supported by queries of historical
examination records. After the FAA determines a standard for inactivity, it will need to
develop business processes and application modifications to restrict AME and employee
access to records of inactive airmen. The FAA will also need to concurrently develop
business processes that return records to an active status, if appropriate, without an undue
burden on the airmen or designees. The target date for completing the actions relating to
this recommendation is no later than September 30, 2013. As discussed above, this will
require interim actions, which will be completed as follows:
    • Complete analysis of MSS airmen data – September 30, 2010
    • Complete development of active/inactive airmen business rules – December 31,
         2010
    • Complete analysis of required MSS modifications – May 31, 2011
    • Complete plan for MSS modifications, cost estimates and schedule – September
         30, 2011
    • Task MSS modifications to contractor – December 31, 2011
    • Completion of all MSS modifications – September 30, 2013

OIG Recommendation 3. Develop documentation detailing the intended controls
regarding how users function within their assigned security roles, how the MSS
application enforces both access control and segregation of duties, and the features of the
application to assist security administration.

FAA Response: Concur.

During the fiscal year (FY) 2009 annual security assessment of the MSS applications,
AVS developed documentation that details user functions within their assigned security
roles. The activities necessary to complete the remaining aspects of this recommendation
must be completed in two sequential steps. Actions to complete documentation
describing how the MSS applications enforce access control and separation of duties is
included in the departmental FISMA reporting system, with a due date of September 30,
2010. Once the access control and separation of duties documentation is complete 1, the
FAA can begin developing documentation for security administrators that describes the
features of the application, which is being tracked with a due date of September 30, 2011.


1
    The FAA assumes “segregation of duties” is synonymous with “separation of duties” as defined in
    control AC-5, Separation of Duties, in NIST Special Publication 800-53.


Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                      25
OIG Recommendation 4. Encrypt sensitive airmen PII stored in MSS as well as MSS
user passwords, and develop agreements as appropriate to ensure airmen PII provided to
other systems is encrypted too.

FAA Response: Concur.

The FAA began encrypting the tables containing user passwords and airmen PII as part of
the database upgrade, which was completed on October 13, 2009. Encryption to protect
the transfer of records to the Aviation Registry will be implemented in accordance with
the AVS Privacy Implementation Plan. As part of the 2010 security assessment of the
Aviation Registry and MSS systems, the FAA will create Plan of Action and Milestones
(POA&Ms) to reflect the OIG recommendation to encrypt the data transfer between MSS
and the Aviation Registry. An MOU for data transfer between MSS and the Aviation
Registry is not necessary because these two systems are under the management control of
the Associate Administrator for Aviation Safety and FAA Order 1370.82A, Information
Systems Security Program, specifically states that an agreement is not required.

The security controls to protect airmen PII provided for computer record matching with
the National Driver Registry (NDR) are in place, including encryption. AVS is
developing a memorandum of understanding with the Office of Security and Hazardous
Materials (ASH) to formalize the information exchange and security requirements. The
target date for completing the ASH MOU and data encryption between MSS and the
Aviation Registry is September 30, 2011.

OIG Recommendation 5. Implement multifactor user authentication, as required by
OMB and the Department's Secure Remote Access capability for all MSS users with
remote access to sensitive PII.

FAA Response: Non-Concur.

The MSS consists of multiple software components. The FAA updated the Information
System Security Plan (ISSP) and E-Authentication Analysis in 2009 to provide a clear
rationale for the differing access levels for the different MSS component applications.
Remote FAA users who can fully access all MSS data and applications must use
multifactor authentication. AMEs, their staffs and airmen have significantly restricted
access to MSS data and applications. AMEs and their staffs may only access one web
based application, AMCS, and can only access airmen medical data that they have
entered into the system. Airmen only have access to MedXpress which allows them to
submit their personal identifying and medical information for their next examination.
Because of the limited system access, the FAA determined that AMEs, AME staff, and
airmen only require user ID and password authentication (NIST SP800-63 Level 2).

OMB does not require multifactor authentication for all web based applications. OMB
Memorandum 04-04 directed agencies to perform an assessment of the authentication
requirements for applications, such as AMCS and MedXpress. The results of an
assessment following OMB guidance can range from as little as user ID alone for a Level

Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                         26
1 application up to multifactor authentication (including hard token) for Level 4
applications. FAA documented the AMCS and MedXpress assessments in both 2008 and
2009 E-Authentication Analyses. No further action is planned on this recommendation.

OIG Recommendation 6. Require and validate that all AMEs and their staff participate
in the DOT security and privacy awareness training, as well as sign the DOT Rules of
Behavior.

FAA Response: Concur.

FAA agrees to provide AMEs and their staff with appropriate security and privacy
awareness training. Since AMEs and their staff have access to a single FAA application,
and access within that application is already very limited, their training will be more
focused and specialized than the DOT employee and contractor training which is
intended for users with network access to multiple DOT applications. In developing and
delivering appropriate training, the FAA must carefully balance the benefits of security
awareness training with the burdens it places on AMEs, who assist the FAA in
performing a critical aviation safety function, but are not compensated by the
government.

Additionally, as health care providers, the Health Insurance Portability and
Accountability Act (HIPAA) of 1996 and the U.S. Department of Health and Human
Services (HHS) implementing regulations in 45 CFR Parts 160 and 164 apply to AMEs
and their staffs. 45 CFR Part 164.308(a)(5)(i) addresses Security Awareness and
Training and requires the implementation of a security awareness and training program.
HHS enforces the HIPAA Privacy Rule, which protects the privacy of individually
identifiable health information and the HIPAA Security Rule, which sets national
standards for the security of electronic protected health information.

Recognizing the benefits of security awareness training, the FAA will develop and
incorporate appropriate security and privacy awareness training into both basic and
recurrent AME training. The FAA will also reinforce security awareness for AMEs and
their staff through recurring articles in the Federal Air Surgeon’s Medical Bulletin that is
published quarterly and distributed to all AMEs. Although the current AMCS Account
Request form includes many items associated with “Rules of Behavior”, the FAA will
review its Rules of System Use (RoSU) and update the form as required. In addition, the
FAA will add security messages to the AMCS "splash" screen, requiring the user to
acknowledge the message before accessing the application. The target date for
completing all actions associated with this recommendation is September 30, 2011.
Interim milestones include:

   •   Complete review of RoSU – September 30, 2010
   •   Update RoSU – December 31, 2010
   •   New AMCS security/privacy messages deployed to the AMCS “splash screen” -
       March 31, 2011


Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                         27
   •   Deploy new initial and recurrent AME security and privacy training – September
       30, 2011

OIG Recommendation 7. Implement the audit and accountability recommendations
received during the previous certification and accreditation process to help identify
inappropriate access to sensitive PII (abuse of access privileges) and ensure data
extract/query has been erased within 90 days from its creation date.

FAA Response: Concur.

The remediation item to implement an audit process and capability into MSS is entered in
the departmental FISMA reporting system with a due date of September 30, 2011.

OIG Recommendation 8. Develop edit checks on the integrity of airman application
data when entered into MSS.

FAA Response: Concur.
The functional requirements document for MSS includes edit check capability to ensure
the integrity of airman application data. OIG testing of MSS indicated that required edit
checking of airmen data was not taking place within the application. The FAA will test
the edit checking capability within MSS and ensure that it is working. Milestones for this
OIG recommendation are as follows:

   •   Complete validation testing of the MSS application suite – September 30, 2010.
   •   Implement corrective measures within MSS where the validation process
       identifies inconsistencies with the functional requirements document – September
       30, 2011.

OIG Recommendation 9. Mitigate the vulnerabilities identified by OIG on MSS
computers that could allow unauthorized access and potentially jeopardize
confidentiality, integrity, and availability of sensitive PII.

FAA Response: Concur.

FAA reviewed and corrected findings provided to the Program Manager for the MSS
applications. Following the correction of vulnerabilities identified in the scan of
MedXPress, the Program Manager reviewed the other MSS component applications
based on these findings. The hosting infrastructure for the MSS application has been
completely replaced. The servers are regularly monitored for missing security updates
and other vulnerabilities and appropriate action has been taken in each instance. This
action was completed October 13, 2009.

OIG Recommendation 10. Configure MSS computer systems in compliance with
applicable Government standards including ensuring vendor security updates are applied,
the Web site locks the user account after 3 unsuccessful attempts, all passwords on the
MSS database are in compliance with standards, and that the application will enforce a

Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                       28
session lock after 15-minute inactivity for all users in accordance with OMB and DOT
guidance.

FAA Response: Concur.

The FAA will ensure that MSS computer systems are configured in compliance with
applicable standards by September 30, 2011. AVS developed several Baseline Security
Configuration Standards (BSCS) for commercial products, including common databases.
An AVS BSCS was used as a foundation for the security configuration during the
database upgrade. Recent DOT policy changes require configuration and assessment
using a NIST or DOT approved checklist. AVS will review available database checklists
and implement an appropriate checklist for compatibility with enterprise infrastructure
and business requirements. To ensure the MSS servers maintain their approved security
configuration, AVS will continue its vulnerability scanning program which regularly
scans the server infrastructure that hosts the MSS applications and addresses
vulnerabilities.

The MSS web-enabled applications were modified on August 14, 2008 to lock user
accounts after three unsuccessful attempts. This modification also requires user
passwords to comply with FAA Order 1370.92, Password and PIN Management.

As noted in our response to OIG Recommendation 6 above, AMEs and their staffs are
required to comply with HIPAA and the HHS implementing rules. The FAA will specify
a specific time out value for AME desktops in their AMCS access agreements. While
NIST recommends a 15 minute value, the FAA will discuss this specific value with the
AME community and establish a value that complies with OMB, DOT and HHS
requirements for information systems security. The target date for establishment and
implementation of all time out standards is September 30, 2011.

OIG Recommendation 11. Perform and document security testing as a continual part of
the MSS development process to confirm that security features remain in effect and are
still functioning properly when system changes are made.

FAA Response: Concur.

The remediation item to document security testing as a continual part of the MSS
development process is entered in the departmental FISMA reporting system with a due
date of September 30, 2010.

OIG Recommendation 12. Acquire a back-up server, finalize the Memorandum of
Understanding with the selected alternate processing site, and conduct a comprehensive
contingency test at the alternate site in accordance with Government standards.

FAA Response: Concur.




Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                        29
These actions were completed in October 2009. FAA brought the backup server online
as part of the database upgrade in October 2009. This provides redundant servers at the
primary processing site. The Application Hosting Proposal was finalized on August 19,
2009. This MOU documents the facility requirements for a data center in the event of a
disaster at the primary processing site. The MSS application was recovered at the back
up site on September 14, 2009 during a comprehensive contingency test.

OIG Recommendation 13. Upgrade the MSS database system to a version supported by
the software vendor.

FAA Response: Concur.

FAA completed the MSS database upgrade on October 13, 2009.

OIG Recommendation 14. Develop back-up database administration capability in the
event the primary Database Administrator is unavailable.

FAA Response: Concur.

FAA completed this recommendation in April 2009 through the addition of support staff.

OIG Recommendation 15. Work with SSA and other disability benefits providers to
establish a target completion date for performing computer matching to identify airmen
applying for, or holding, medical certificates and receiving disability benefits.

FAA Response: Concur.

The FAA has made significant progress in response to the House Aviation
Subcommittee’s request that the FAA establish a matching program that would enable
FAA to detect airmen receiving disability benefits, compare medical records to ensure
medical information was appropriately disclosed, and determine whether enforcement
action is warranted.

FAA has completed the necessary legal steps that would allow the agency to share
medical information with other Federal agencies. Through publication in the Federal
Register, the FAA notified the public that it had revised the system of records notice that
applies to airman medical records to include one that expressly authorizes disclosure of
airman medical information to other Federal agencies for verification of the accuracy and
completeness of the applications. In addition, the Application for Airman Medical
Certificate, FAA Form 8500-8, was revised to provide similar information to each airman
medical certificate applicant.

The FAA also completed measures to obtain disability-related information directly from
applicants for an airman medical certificate. The FAA revised its paper and web-based
versions of its Application for Medical Certificate, FAA Form 8500-8, to require airmen
to address whether they currently receive, or have ever received, medical disability

Appendix B. Agency Comments
APPENDIX B. AGENCY COMMENTS
                                                                                       30
benefits. In addition, the FAA is providing written and oral instruction to its cadre of
approximately 4,000 AMEs by way of the Federal Air Surgeon’s Medical Bulletin and at
AME seminars describing their responsibility to seek disability-related information from
airmen.

While FAA has put into place these necessary building blocks that are within its
authority, it has not yet succeeded in gaining the cooperation of the other entities
necessary to make the process work. FAA’s limited data match testing during
“Operation Safe Pilot,” was made possible through the participation of the DOT-OIG and
the Social Security Administration OIG (SSA-OIG). FAA’s efforts to build upon
Operation Safe Pilot relies upon the continued cooperation of both OIGs, and to date,
DOT-OIG has declined to participate. Recently, the DOT-OIG informed the FAA that it
would not participate in a computer matching program as proposed by the SSA-OIG.
The FAA notified the SSA-OIG of the DOT-OIG’s decision not to participate and
requested the SSA-OIG to consider the feasibility of proceeding without DOT-OIG
involvement. The FAA is awaiting SSA-OIG’s response to this request. If SSA-OIG
declines direct participation with FAA, then FAA will determine by November 2010
whether there may be alternative avenues to pursue the data match program.

Based upon the FAA’s limited experience and involvement with DOT OIG and SSA OIG
pilot matching program “Operation Safe Pilot”, it is clear that FAA will require
additional personnel and funding to carry out nation-wide, multi-departmental matching
program. Operation Safe Pilot only focused on the Northern and Eastern Districts of
California, and it generated a significant work load for the FAA Western-Pacific
Aerospace Medicine Division. The FAA needs physicians, program analysts, attorneys
and paralegal specialists to implement and carry out a national program to investigate
alleged instances of falsification, prepare appropriate documentation in support thereof,
and carry out enforcement actions consistent with the Federal Aviation Regulations.

The FAA will seek additional resources in the President’s FY 2012 and/or FY 2013
budget request to implement and carry out this program. If the other Federal entities are
willing to participate, the FAA will be prepared to begin the program in FY 2012.




Appendix B. Agency Comments
